  Office of Inspector General
      Audit Report


 FAA’S APPROACH TO SWIM HAS LED TO
COST AND SCHEDULE UNCERTAINTY AND
    NO CLEAR PATH FOR ACHIEVING
           NEXTGEN GOALS
        Federal Aviation Administration

         Report Number: AV-2011-131
          Date Issued: June 15, 2011
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA’s Approach to SWIM Has Led to                                    Date:    June 15, 2011
           Cost and Schedule Uncertainty and No Clear Path
           for Achieving NextGen Goals
           Federal Aviation Administration
           Report Number AV-2011-131

  From:    Jeffrey B. Guzzetti                                                       Reply to
                                                                                     Attn. of:   JA-10
           Assistant Inspector General
             for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

           The Federal Aviation Administration’s (FAA) successful transition to its Next
           Generation Air Transportation System (NextGen) depends on developing and
           implementing the System Wide Information Management (SWIM) program. FAA
           plans to spend about $284 million through 2015 to implement the first of three
           stages of SWIM. As envisioned, SWIM will form the basis for a secure network
           that manages and shares information more efficiently among all air traffic systems
           that will comprise NextGen. Key benefits expected from SWIM are streamlined
           data communications and real-time information that will improve air traffic
           management, enhance airspace capacity, reduce flight delays, and decrease costs
           for FAA and aviation users.

           We initiated this audit because FAA identified SWIM as a key transformational
           program 1 for NextGen. Our audit objectives were to (1) determine the
           development and implementation status of SWIM and (2) assess the risks facing
           SWIM’s successful deployment. We conducted this audit in accordance with
           government auditing standards prescribed by the Comptroller General of the
           United States. Exhibit A details our audit scope and methodology.

           RESULTS IN BRIEF
           FAA is still in the early stages of developing SWIM but has increased the costs for
           the program’s first of three segments by more than $100 million and delayed its
           1
               We have an ongoing review of FAA’s Transformational Programs; SWIM is one of six of those capital programs
               that FAA is developing and implementing.
                                                                                      2


completion by at least 2 years. Undefined requirements among the seven
programs that will serve as implementation platforms for SWIM are driving these
cost increases and schedule delays. Five of the program offices have not finalized
their own system requirements, much less their plans to implement SWIM
capabilities. For example, SWIM is intended to enable data sharing with the En
Route Automation Modernization Program (ERAM)—the primary NextGen tool
for processing flight data in the National Airspace System (NAS). However, FAA
does not plan to fully integrate SWIM capabilities with ERAM for another 4 years.
FAA also has yet to develop an implementation strategy for the two remaining
SWIM segments and is considering other alternatives given the cost and schedule
slips experienced to date.

SWIM will likely remain at risk of further cost increases and schedule delays
because FAA has not established clear lines of accountability for overseeing how
SWIM is developed and managed. Rather than pursue an overarching SWIM
infrastructure, FAA decided it could best achieve SWIM’s diverse benefits and
save development costs by delegating significant responsibility and funding to the
seven NAS program offices to design and implement SWIM. However, in doing
so, FAA also left the SWIM Program Office with no authority over the other
program offices’ costs, schedules, and requirements related to SWIM. Each
program office determines when and how SWIM software will be upgraded on its
system with little or no input from the SWIM Program Office. Because the SWIM
Program Office is not filling the typical role of setting long-term programmatic
priorities, it will be difficult for FAA to develop an end-state transition strategy for
SWIM and ensure that SWIM aligns with NextGen goals such as reducing
aviation costs. Without a consistent vision of SWIM’s requirements and clearly
defined program priorities, the true cost and timeline to deploy SWIM and the
realization of expected benefits is unknown.

Our recommendations to FAA focus on actions needed to effectively implement
SWIM and address program challenges and risks.

BACKGROUND
FAA began developing and implementing SWIM in June 2007. SWIM is
software that will provide FAA with a more effective process for sharing air traffic
information to support current and future NAS programs. FAA plans to
implement SWIM in three segments but has only approved funding
(i.e., baselined) for the first segment.

Segment 1 (originally planned between 2009 and 2013): FAA expects this
segment to provide users with more air traffic management system information
sharing, including airport operational status, weather information, flight data,
status of special use airspace, and airspace restrictions. FAA is still defining
                                                                                                 3


Segment 1 requirements. Rather than developing a separate SWIM infrastructure,
FAA is developing and implementing SWIM capabilities within seven FAA
systems that comprise Segment 1, as shown in table 1.

        Table 1. Seven NAS Programs Implementing SWIM Capabilities
                              Air Traffic Management Systems


• En Route Automation Modernization (ERAM): The SWIM ERAM service will provide
  flight data and updates to airspace users for filed/active flight plans, and adapted arrival
  and departure route status. Capabilities for five of the seven systems are planning to
  utilize ERAM for support.
• Traffic Flow Management System (TFMS): The SWIM TFM service will provide a means
  for airspace users to subscribe to information on traffic flow constraints, such as ground
  delays, and ground stops.
• Terminal Data Distribution System (TDDS): The SWIM TDDS service will consolidate
  data from four terminal systems that provide information such as pre-departure clearance
  data to controllers and visibility of runway conditions to pilots.
• Aeronautical Information Management (AIM) /Special Use Airspace Management
  System (SAMS): This SWIM service will improve the current Special Use Airspace (SUA)
  process by providing better knowledge of when airspace used jointly by FAA and the
  military is safe for civilian aircraft to enter.
Weather Systems
• Integrated Terminal Weather System (ITWS): The SWIM ITWS service provides a real-
  time picture of aviation-impacting weather near airports (wind shear, lightning, storm cells)
  with a 1-hour weather forecast.
• Corridor Integrated Weather System (CIWS): The SWIM CIWS service provides
  weather-avoidance routing/re-routing and automated 2-hour weather forecast.
• Weather Message Switching Center Replacement (WMSCR): The SWIM WMSCR
  service adds a new capability to automatically distribute pilot reports of crucial weather
  observations by pilots to en route controllers.
Source: SWIM Final Program Requirements, Segment 1, May 23, 2007.

Segment 2 (between 2012 through 2016): FAA expects this segment to provide
services to support NAS-wide flight planning activities; improved flight arrival,
surface, and departure flow; and restricted and regulated airspace capabilities.
Additionally, this segment will provide NextGen users with universal access to
aviation weather data (in latitude, longitude, altitude, and time). The SWIM
Program Office is currently conducting the Segment 2 investment analysis to
determine cost, schedule, and performance parameters. A final investment
decision is planned for September 2012.

Segment 3 (between 2016 through 2019): FAA expects this segment to allow
for enhanced communications and surveillance to reduce separation between
aircraft in the oceanic air traffic environment and improve airport surface traffic
                                                                                                    4


management. In addition, this segment will provide more timely and informed
decision-making based on shared situational awareness between airspace users.

SWIM IS EXPERIENCING SIGNIFICANT COST INCREASES AND
SCHEDULE DELAYS
Cost estimates for Segment 1 of SWIM have increased significantly while
estimated cost savings have decreased. Further, FAA has no executable strategy
to finish deploying SWIM and achieve user benefits for this segment. When FAA
made its final investment decision in July 2009, the estimated cost to complete
Segment 1 had increased by approximately $105 million since 2007 (from about
$179 million to about $284 million). FAA has also reduced the expected cost
savings for Segment 1 by approximately $168 million and delayed completion
from 2013 to 2015. Further delays are likely as the seven NAS program offices
implementing SWIM have yet to fully define their specific program or SWIM
requirements. Table 2 shows the increase in estimated cost to complete
Segment 1.

               Table 2. SWIM Annual Cost Estimates for Segment 1
               (Facilities and Equipment Funds - Dollars in Millions)
FAA’s Estimated Cost          2009       2010       2011    2012    2013     2014   2015    Total
to Complete
June 2007                        $46.3    $58.3     $42.2   $25.2     $6.9                  $178.9*

July 2009                        $39.7    $58.3     $84.5   $42.8   $35.9 $15.0      $7.3   $283.5

Total Cost Variance              $-6.6          0   $42.3   $17.6     $29 $15.0      $7.3   $104.6

Source: OIG analysis of FAA’s Joint Resources Council SWIM documents (*Total does not compare to
Table 4 due to rounding).
Note: FAA provided cost estimates to complete SWIM in 2007 and 2009. However, in 2007, the Agency
only baselined cost estimates for the first 2 years, and in 2009 all costs estimates were baselined.

NAS Program Offices’ Undefined Requirements Have Delayed SWIM
Implementation for Segment 1 and Increased Development Costs
FAA is at least 4 years away from finalizing requirements to fully realize SWIM
capabilities; many of these requirements depend on the successful development
and implementation of other NAS systems. Until the seven NAS programs needed
to implement SWIM have defined requirements, delays with SWIM’s overall
development will continue. For example, a critical component of SWIM’s success
is the ERAM program, as four of the other NAS programs implementing SWIM
are planning to use ERAM for support. Without ERAM, the more efficient flight
data management envisioned for SWIM will not be possible; therefore, defining
and completing ERAM modernization requirements must be a top priority.
Because of its central role, the ERAM program has received funding from the
                                                                                                                      5


SWIM Program Office to modernize and enhance ERAM flight data processing
and external interfaces with terminal air traffic control (ATC) and the Traffic Flow
Management (TFM) systems (see exhibits B and C for a detailed list of SWIM
capabilities enabled through all seven systems and cost and schedule status).

Table 3 provides examples of requirements for the five NAS programs that must
be finalized to implement SWIM (see exhibit D for a complete list of the
challenges all seven programs must overcome to implement SWIM capabilities).

        Table 3. Requirements That NAS Program Offices Must Finalize To
                         Implement SWIM Capabilities
FAA Systems             Challenges to Finalizing Requirements

ERAM                    FAA is 4 years away from finalizing requirements to fully implement
                        SWIM/ERAM capabilities. For example, FAA has yet to finalize requirements
                        to replace two key interfaces that share flight data with airspace users and
                        terminal and tower facilities. FAA does not plan to complete this activity until
                        FY 2014. FAA also does not plan to start the final phase of exchanging SWIM-
                        compliant information with the TFM and terminal facilities or complete
                        SWIM/ERAM upgrades for the 22 en route facilities until FY 2015.
TDDS                    FAA is undertaking a major development effort to implement SWIM terminal
                        capabilities on a new system known as the Terminal Data Distribution System
                        (TDDS). It is uncertain when FAA will deploy TDDS to the 38 planned sites for
                        Segment 1 because the Agency has yet to establish a contract agreement and
                        fully define all requirements.
TFM                     FAA has yet to develop requirements for a new TFM service to provide NAS
                        users with information from terminal facilities because of its dependence on
                        TDDS, which has yet to be developed. This service is not expected to be
                        implemented until FY 2014.
SAMS                    FAA has not established firm requirements to upgrade ERAM with SWIM’s
                        capability to exchange Special Use Airspace data with other Air Traffic
                        Management systems. FAA does not plan to implement this capability until
                        FY 2014.
WMSCR                   FAA has not established firm requirements to upgrade ERAM with the interface
                        to record Pilot Reports and send them to the WMSCR system. FAA does not
                        plan to implement this capability until 2015.

Source: OIG analysis of SWIM Implementing Program documentation

As a result of the changing requirements with these programs, SWIM Segment 1
development costs have increased significantly over original estimates. For
example, the estimated costs to upgrade ERAM with SWIM increased by
85 percent, from $63.4 million to $117.7 million. Likewise, costs for TDDS more
than doubled, from $16.5 million to $33.9 million. 2 Congress has specifically

2
    When upgraded with SWIM, ERAM is expected to provide flight data and updates to clients for filed/active flight
    plans, and adapted arrival and departure route status. TDDS is expected to consolidate data feeds from four terminal
    systems that provide information such as pre-departure clearance data to controllers and greater visibility of runway
    conditions to pilots.
                                                                                                             6


expressed concern over how much money will be directed to the other program
offices to support SWIM. 3 In fiscal year (FY) 2009, of the $41 million requested
for SWIM, FAA redirected $27.6 million to the seven NAS programs to
implement SWIM capabilities for their respective systems. Table 4 outlines the
increases in cost estimates for six of the seven NAS programs to implement
SWIM capabilities.

                     Table 4. SWIM Segment 1 Program Cost Variances


                                                             Estimated Cost
                                                           (Dollars in Millions)
      NAS Programs Implementing SWIM                                                         Percent Cost
                 Capabilities                              2007                2009            Growth
     Terminal Data Distribution System
     (TDDS)                                                     $16.5               $33.9          105.5%
     Weather Message Switching Center
     Replacement (WMSCR)                                          $6.5              $12.8           96.9%
     En Route Automation Modernization
     (ERAM)                                                     $63.4             $117.7            85.6%
     Traffic Flow Management (TFM)                              $19.8               $29.2           47.5%
     Corridor Integrated Weather System
     (CIWS)                                                       $0.8                $0.9          12.5%
     Integrated Terminal Weather System
     (ITWS)                                                       $3.0                $3.2           6.7%
     Aeronautical Information Management
     (AIM)                                                        $8.5                $7.1          -16.5%
     SWIM Program Office                                        $60.5               $78.7           30.1%
     TOTAL                                                   $179.0*              $283.5            58.4%
Source: OIG analysis of FAA’s Joint Resources Council SWIM documents (*Total does not compare to
Table 2 due to rounding).

Many of these technologies are likely to see further cost increases with continued
SWIM schedule delays. FAA originally planned to field SWIM segments in
4-year increments but has already extended completion for Segment 1 from
4 years to 6 years. Segment 1 capabilities originally planned for deployment in
2013 are now slated for 2015. Until FAA fully defines and finalizes requirements
for the programs implementing SWIM, the program’s cost and schedule will
remain uncertain.

FAA HAS NOT ESTABLISHED CLEAR AUTHORITY FOR
MITIGATING RISKS AND SUCCESSFULLY IMPLEMENTING SWIM
SWIM will likely remain at risk of further delays and cost increases because the
SWIM Program Office has no authority over the seven NAS program offices’

3
    Committee on Appropriations, U.S. Senate, Committee Report 110-418, July 14, 2008.
                                                                                                             7


costs, schedules, and requirements for implementing SWIM. In deciding upon a
decentralized approach to implement SWIM, FAA recognized that transitioning to
a SWIM-enabled environment all at once would not be operationally practical,
affordable, or provide a guaranteed level of safety for mission-critical systems
with high-availability requirements. A decentralized approach is not necessarily
cause for concern, but combined with evolving requirements, no clear end state,
and unclear lines of accountability, it can significantly increase risks to the
program’s successful implementation. Because the SWIM Program Office is not
filling the typical role of setting long-term programmatic priorities, it will be
difficult for FAA to develop an end-state transition strategy for SWIM; ensure that
SWIM aligns with NextGen goals as promised; and address data integrity,
performance, and security issues.

SWIM Program Office Has No Authority Over SWIM Implementation, Cost,
and Schedule
The SWIM Program Office has relied on Program Level Agreements (PLA) with
the seven NAS program offices to document and establish funding sources, design
parameters, and implementation dates for developing capabilities. However, these
PLAs have been ineffective tools for controlling SWIM development costs and
schedules. FAA officials believed that this approach would save on initial
development costs by building out the SWIM infrastructure through the seven
NAS systems. Yet, SWIM program officials admitted they have no authority over
when SWIM capabilities will be implemented. A primary reason is that the seven
NAS program offices responsible for developing SWIM individually manage
when and how their SWIM software is deployed. The SWIM Program Office
could not justify the escalating development costs associated with six of the seven
programs.

Further, FAA did not establish PLAs with any of the program offices for
Segment 1 deployment activities through the end of Segment 1 from 2012 through
2015 for the majority of the systems involved. While the PLA process has
limitations, FAA did not use them to gain commitment from the NAS program
offices on schedule goals that could be achieved. As a result, in addition to
driving their own costs, the NAS program offices do not provide deployment
schedules, and their requirements are constantly changing. Our work has shown
that this approach has significant risks. As we stated in September 2008,
implementing SWIM in an incremental approach could leave the program with no
clear end state and less cost visibility into what it would take to complete the
program. 4


4
    OIG Testimony Number CC-2008-118, “Status of FAA’s Effort To Develop the Next Generation Air Transportation
    System,” September 11, 2008. OIG reports and testimonies are available on our website: www.oig.dot.gov.
                                                                                                                    8


FAA Does Not Have SWIM End-State Plans
Without a more centralized perspective on implementing SWIM, FAA lacks an
actionable roadmap to transition the NAS to SWIM through its end state.
Specifically, FAA has not developed an overall architectural design that identifies
all the NAS systems that will require SWIM technology. In 2007, Congress
expressed specific concerns about this aspect of the program, stating that the value
of SWIM lies in its overall architecture rather than in its connectivity to disparate
systems. Congress directed FAA to explain how it will ensure connectivity
between SWIM and other systems. 5 FAA submitted its report to Congress in
January 2008; however, it did not sufficiently explain how FAA would ensure
connectivity and integration with existing and planned air traffic systems.

According to FAA, SWIM connectivity to other systems becomes critical as more
air traffic programs beyond the seven Segment 1 systems are upgraded with
SWIM, because system complexity will increase. Overly complex systems will
eventually limit the number of cost-efficient capabilities, which will ultimately
impede user acceptance—a key component of achieving a successful end-state for
new technology. However, FAA has not planned how users such as airlines,
airline operating centers, or other agencies will upgrade their respective systems
with SWIM capabilities for exchanging data so they can be compatible and begin
using the new capabilities SWIM will offer. Industry experts noted that migrating
legacy systems and operational environments to a SWIM-based infrastructure will
typically be a gradual and painstaking process presenting planning/lifecycle
challenges.

SWIM Lacks Alignment with NextGen Goals
FAA’s NAS Enterprise Architecture 6 roadmap identifies numerous SWIM
initiatives required to achieve NextGen goals, including reducing aviation costs
(FAA’s and industry stakeholders’), expanding capacity, improving collaborative
decision making, and increasing system predictability. With the exception of
reducing aviation costs, these NextGen goals are associated with SWIM
capabilities slated for Segments 2 and 3. However, SWIM program officials have
yet to finalize the requirements to achieve them or define expected benefits for
FAA and aviation users. Moreover, according to SWIM planning documents,
aviation users will not realize key NextGen benefits in Segment 1; rather, only
FAA cost savings realized by deployment of SWIM capabilities are planned.

Reducing Aviation Costs: The SWIM implementation plan states that a key
objective of the SWIM program is to help reduce FAA infrastructure costs by
5
    Committee on Appropriations, U.S. Senate, Committee Report 110-131, July 16, 2007.
6
    An Enterprise Architecture describes the “current architecture” and “target architecture” to include the rules and
    standards and systems life cycle information to optimize and maintain the environment which the agency wishes to
    create and maintain by managing its information technology portfolio.
                                                                                                    9


reducing the number and types of interfaces, systems, and potentially facilities that
make up the NAS. Additionally, new systems will develop SWIM-compliant
interfaces, saving future development costs. Table 5 outlines FAA’s planned
SWIM cost savings per year.

         Table 5. SWIM Projected Annual Cost Savings (Dollars in Millions)
 FAA’s Projected
 Cost Savings            FY09     FY10      FY11      FY12      FY13     FY14      FY15    Total

 June 2007               $88.4     $87.1    $86.0     $87.9     $83.6     $13.5    $13.3   $459.8

 July 2009               $55.5     $55.1    $52.4     $51.7     $51.8     $12.9    $12.8   $292.2

 Decrease               $32.9    $32.0      $33.6     $36.2     $31.8       $0.6    $0.5   $167.6
Source: SWIM Final Investment Decision Briefings (June 2007 and July 2009).

FAA has already reduced the expected cost savings benefits by $168 million (from
$459.8 million to $292.2 million) through 2015, the end of Segment 1, because
2 additional years will be required to complete Segment 1. Moreover, FAA could
not support its reported annual cost savings of about $55 million for FY 2009 and
FY 2010. One of the assumptions associated with these cost savings was that
ERAM and TFM program offices would agree to stop work on a capability
planned for ERAM Release 1 to support the exchange of Special-Use Airspace
(SUA) data. This is because, as planned, SWIM would provide the same
capability at the same time. However, FAA’s original assumptions are no longer
valid because the new interface for the SWIM SUA capability will not be
deployed until 2014, at least 4 years later than originally planned.

Expanding System Capacity: FAA’s SWIM implementation plan also states that
the program will enable information to be readily shared and used by all NAS
participants. With more widespread use of better data, SWIM will improve
strategic planning and flight trajectory management to allow better use of existing
capacity in the en route (high altitude) environment. FAA’s NAS Enterprise
Architecture states that FAA is planning to initiate trajectory-based operations,
which will provide interactive flight planning during Segment 2 of the SWIM
program. However, FAA has yet to define requirements or establish a transition
plan for when SWIM will provide this new capability. FAA is not planning to
approve a final Segment 2 performance baseline until September 2012.

Improving Collaborative Decision Making: A key NextGen and SWIM goal is
to enable collaborative decision making, which means that once all airspace users
have access to the same information, they can efficiently make real-time decisions
and quickly reach agreements. However, FAA’s NAS Enterprise Architecture
states that the Agency is not planning to implement the full collaborative decision
making capability for SWIM until Segment 3 of the program. Requirements for
this capability also have not been defined.
                                                                                                          10


Increasing Predictability: SWIM is expected to improve coordination to allow
transition from tactical conflict management to strategic operations and make
flight schedules more reliable. Also, SWIM is expected to provide the potential to
increase automated information exchanges between systems (e.g., ERAM and
TFM) for the purposes of supporting and disseminating decisions rather than
relying on current manual processes. A planned benefit of SWIM is to ensure
consistent decision making based on the same data. However, FAA’s NAS
Enterprise Architecture did not have any information outlining when the Agency
would achieve this NextGen objective through SWIM.

Performance Issues with Data Integrity, Security, and Routing
While the SWIM software has a number of security directory services and system
management capabilities, by itself, the software does not supply all the needed
data integrity or security features. To provide these would require an Enterprise
Service Bus (ESB 7) or general framework for security. FAA is not using an ESB
for Segment 1 of SWIM but is considering using one during the transition to
Segment 2. Industry experts caution that FAA’s plan to provide a secure
information web through SWIM may not be successful without a central ESB
capability for NAS-wide message exchange.

Other security risks could be introduced to the program with the SWIM Program
Office’s plans to use FAA’s Telecommunication Infrastructure (FTI) to route
information between NAS systems and external users. FTI uses Internet Protocol
Security controls such as Virtual Private Networks to create authorized
connections between external systems and FTI. FAA has not yet developed a
similar protocol to ensure that those programs implementing SWIM technology
and aviation users meet all the requirements necessary to protect the NAS systems.
Using SWIM technology can expose an organization to security risks that can
compromise existing network-based internal controls. Web service-enabled
networks such as FTI are more vulnerable to internal and external attacks. For
example, in May 2009, we reported that Web applications used in supporting ATC
systems operations that are not properly secured can create security risks. 8

CONCLUSION
The guiding tenet of FAA’s vision for NextGen is transitioning from air traffic
control to air traffic management to increase the capacity and efficiency of the
Nation’s aviation system. This will require revolutionizing communication across
the NAS, while effectively planning and overseeing the significant investments
required. Because SWIM is a key component of this plan, FAA must take steps
7
    ESB services provide a common backbone upon which global information is transacted and managed securely.
8
    OIG Report Number F1-2009-049, “Review of Web Applications Security and Intrusion Detection in Air Traffic
    Control Systems,” May 4, 2009.
                                                                               11


now to establish clear accountability and authority for SWIM’s implementation.
Otherwise, the program will be left without an overall blueprint or achievable end
state. These steps are critical to mitigate risks of further cost increases and
schedule delays and obtain promised benefits for NAS users.

RECOMMENDATIONS
We recommend that FAA:

 1. Finalize SWIM requirements for Segment 1 and establish firm cost and
    schedule commitments.

 2. Provide the SWIM Program Office with the proper authority to ensure SWIM
    capabilities will be implemented within the established schedule.

 3. Strengthen the PLA process so the SWIM Program Office can have sufficient
    authority to enforce SWIM’s Segment 1 implementation.

 4. Define requirements through SWIM’s end-state by:

      a. developing an overall architectural design for the SWIM program
         identifying all the NAS systems that will be required to implement
         SWIM technology.

      b. defining their respective costs and schedules for implementing planned
         capabilities.

 5. Align SWIM implementation strategy with the Agency’s NextGen goals,
    develop a realistic plan that coordinates the two, and define when planned
    NextGen benefits will be realized.

 6. Follow up with NAS program offices and users implementing SWIM
    technology to determine whether they are meeting all the requirements
    necessary to protect NAS systems from exposure to security risks.
                                                                                     12



AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We discussed the results of our review with FAA’s Senior Vice President for
NextGen and Operations Planning, and SWIM Program Manager and provided
FAA with our draft report on April 15, 2011. We received the Agency’s formal
response on May 12, 2011. FAA’s complete response is included as an appendix
to this report. In its response, FAA concurred with all six of our recommendations.

FAA’s planned actions meet the intent of our first recommendation. FAA stated
that PLAs are typically updated annually, but we are requesting that FAA provide
us with target action dates for when the PLAs are finalized so that we can track the
Agency's progress.

For recommendations 2 and 3, FAA stated that the SWIM Program Office was
given more authority to ensure SWIM capabilities will be implemented within the
established schedule through FAA’s Joint Resources Council (JRC) process. FAA
also stated that the Deputy Administrator will assume direct oversight
responsibility for NextGen activities and that differences between the SWIM
Program Office and other programs regarding SWIM implementation will be
adjudicated at this level. While this is a step in the right direction, it is unclear to
us how the JRC process and direct oversight of the Deputy Administrator for
NextGen activities will sufficiently strengthen the PLA process itself. The intent
of our recommendations was that FAA provide the SWIM program office or
another FAA entity with greater authority to effectively manage requirements,
cost, and implementation schedules by improving controls over PLAs.
Accordingly, we are requesting that FAA provide us with more details and
completion dates for its planned actions for recommendations 2 and 3.

For recommendations 4, 5, and 6, FAA stated that it would complete actions to
address our concerns by September 30, 2012, in preparation for a Final Investment
Decision for Segment 2 of SWIM. FAA also indicated that cost, schedule,
requirements, and an overall architecture design for Segment 3 of SWIM will be
finalized in preparation for a Final Investment Decision on September 30, 2014.
Accordingly, we consider these recommendations resolved but open pending
completion of planned actions.

ACTIONS REQUIRED
FAA’s proposed actions for recommendations 4, 5, and 6 are responsive, and we
consider them addressed but open pending completion of the planned actions. For
recommendation 1, we are requesting that FAA provide us with target dates for
                                                                                 13


updating PLAs annually. For recommendations 2 and 3, we are requesting that
FAA provide us more details on how it plans to strengthen the PLA process.

We appreciate the courtesies and cooperation of FAA and various stakeholder
representatives during this audit. If you have any questions concerning this report,
please contact me at (202) 366-0500 or Kevin Dorsey, Program Director, at (202)
366-1518.

                                         #

cc: FAA Deputy Administrator
    FAA Chief of Staff
    FAA Director, Audit and Evaluation
    Anthony Williams, AAE-001
    Martin Gertel, M-1
                                                                                 14



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards as prescribed by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. We conducted this review between September 2008
and April 2011.

To assess FAA’s efforts to develop and implement Segment 1 of the SWIM
program we identified the cost, schedule, and performance issues associated with
the program and identified the risks associated with FAA’s decision to develop
SWIM using a decentralized approach for Segment 1 and a centralized approach to
transition into Segment 2. We examined the Program Level Agreements that
placed the authority to develop and implement SWIM capabilities under the
control of the Implementation Programs.

We interviewed FAA program officials representing the seven FAA systems
implementing SWIM capabilities. We also met with NextGen program officials
from the Office of Requirements and Governance and the Office of Evolution and
Coordination.

We conducted site visits at the Volpe National Transportation Systems Center in
Cambridge, Massachusetts to observe the Integrated Terminal Weather System
(ITWS) working prototype developed by VOLPE to distribute live weather data
with an advance forecasting notice time of 1 hour. We observed real time ITWS
weather demonstrations developed as a Service Oriented Architecture (SOA)-
based prototype to provide interoperable services to allow different applications to
exchange data with one another using an industry standard format. We visited and
interviewed the staff at William J. Hughes Technical Center in Atlantic City, NJ to
assess their support resources for the SWIM program. We also visited the two
facilities at the Tech Center for SWIM   − the SWIM Prototyping and Support
Facility to gain an understanding of the Hardware and Software necessary to
support the SWIM prototyping and evaluation activities, and the SWIM
Integration Facility which releases versions of the service container software
maintained in the SWIM Commercial off-the-Shelf (COTS) products repository.




Exhibit A. Scope and Methodology
                                                                                                   15




     EXHIBIT B. SWIM PLANNED CAPABILITIES
    NAS PROGRAMS                 CAPABILITIES                          SWIM SERVICES

Traffic Flow Management       Flow Information          Provide a means for airspace users to subscribe to
(TFM)                         Publication               information on traffic flow constraints, such as
                                                        ground delays and ground stops.
                              Runway Visual Range       Provide runway visibility data used to report
                                                        approximate distance a pilot is able to see down a
                                                        runway.
                              Reroute Data Exchange     Provide aircraft reroutes for congested airspace,
                                                        severe weather, facility outages, or emergencies.
En Route Automated            Flight Data Publication   Provide flight data and updates to airspace users
Modernization (ERAM)                                    for filed/active flight plans, and adapted arrival
                                                        and departure route status.
Terminal Data Distribution    Terminal Data             Consolidate data feeds from four terminal systems
System (TDDS)                 Distribution              that provide information such as pre-departure
                                                        clearance data to controllers and greater visibility
                                                        of runway conditions to pilots.
Aeronautical Information      SUA Automated Data        Improve the current Special Use Airspace (SUA)
Management/Special Use        Exchange                  process by providing better knowledge of when a
Airspace (SUA)                                          SUA is active or inactive, i.e., unsafe or safe for
                                                        civilian aircraft to enter.
Weather Message Switching Pilot Reports (PIREP)         Provide a new capability to automatically
Center Replacement System Data Publication              distribute weather-related pilot observations to
(WMSCR)                                                 controllers to enhance safety and capacity.
Integrated Terminal Weather ITWS Publication            Provide real-time picture of weather near airports
System (ITWS)                                           (wind shear, lightning, storm cells) with a 1-hour
                                                        weather forecast.
Corridor Integrated Weather   CIWS Publication          Provide weather avoidance routing/re-routing and
System (CIWS)                                           an automated 2-hour weather forecast.


Source: SWIM Final Program Requirements Segment 1 (May 23, 2007), and other FAA sources.




     Exhibit B. SWIM Pl anned Capabilities
                                                                                               16



EXHIBIT C. COST AND SCHEDULE STATUS OF SEVEN NAS
PROGRAMS IMPLEMENTING SWIM CAPABILITIES

                          No. of                     SWIM Services            SWIM Funded
                         Systems
                       Upgraded with                                          Cost Estimate
                           SWIM               Initially           Fully        (in millions)
      NAS Programs      Capabilities         Operational        Operational
      Air Traffic Management
      En Route              22                 FY 2012          FY 2015        $ 117.7
      Automation
      Modernization
      (ERAM)
      Traffic Flow           2                 FY 2011          FY 2014        $   29.2
      Management
      System (TFMS)
      Terminal Data         38                 FY 2012          FY 2015        $   33.9
      Distribution
      System (TDDS)
      Special Use            2                 FY 2010          FY 2014        $   7.1
      Airspace (SUA)

     Weather

      Weather                3                 FY 2012          FY 2015        $ 12.8
      Message
      Switching
      Center
      Replacement
      (WMSCR)
      Integrated             1                 FY 2011          FY 2011        $   3.2
      Terminal
      Weather
      System (ITWS)


      Corridor               1                 FY 2011          FY 2011        $   0.9
      Integrated
      Weather
      System (CIWS)



 Source: OIG analysis of SWIM planning and funding documents.




Exhibit C. Cost and Schedule St atus of Seven N AS Programs Implementing
SWIM Capabilities
                                                                                                      17



    EXHIBIT D. NAS PROGRAMS CHALLENGES IMPLEMENTING SWIM
    CAPABILITIES
  NAS PROGRAMS                   CHALLENGES IMPLEMENTING SWIM SERVICES

En Route Automated     Major modernization efforts required to successfully implement SWIM/ERAM
Modernization (ERAM)   capabilities: We found FAA has considerable development work that will be
                       required over the next 4 years before all of the SWIM/ERAM capabilities are
                       implemented. For example, ERAM program officials have only completed
                       requirements to develop an interface with TFM. This will establish a standard
                       SWIM interface to implement the capability to exchange pre-departure and
                       rerouting information between the TFM and En Route domains once a flight plan
                       has been filed. The SWIM reroute interface will automate what is currently a
                       manual process. However, the FAA is not planning to start operating this capability
                       until FY 2012.

                       Moreover, in the FAA En Route environment there are two key interfaces that share
                       flight data (e.g., the filed flight plan and the current state of the flight) today that
                       will be replaced in SWIM Segment 1. The Host Air Traffic Management Data
                       Distribution System (HADDS) provides a general purpose message-based interface
                       for sharing flight data with airspace users, and Flight Data Input/Output (FDIO)
                       which provides a point-to-point data interface with terminal and tower facilities.
                       FAA is currently planning to complete the HADDS and FDIO replacement by FY
                       2014, however, the agency has yet to finalize requirements for this key activity.

                       Finally, FAA is not planning to complete SWIM/ERAM upgrades for the 22 En
                       Route facilities and start the final phase of exchanging SWIM compliant
                       information with the TFM and terminal facilities until FY 2015. However, until
                       requirements are finalized considerable uncertainty exists with respect to when
                       these capabilities will be implemented.




    Exhibit D. N AS Programs Challenges I mplementing SWIM Capabilities
                                                                                                           18



NAS PROGRAMS                 CHALLENGES IMPLEMENTING SWIM SERVICES

Terminal Data Distribution   Major development effort required to achieve SWIM terminal capabilities: FAA is
System (TDDS)                currently undertaking a major development effort to implement SWIM terminal
                             capabilities. FAA needed to develop a new system known as the Terminal Data
                             Distribution System (TDDS) to more effectively exchange terminal data with the
                             En Route and TFM facilities which is currently exclusive to the terminal facilities.
                             FAA has a contract with Raytheon to develop the TDDS system, and current plans
                             are to complete development in FY 2012. The TDDS is currently planned to be
                             deployed at large Terminal Radar Approach Control (TRACONs) and major air
                             traffic control tower facilities. The TDDS will consolidate data feeds from four
                             terminal systems that provide information such as pre-departure clearance data to
                             controllers and greater visibility of runway conditions data to pilots. However,
                             uncertainty exists regarding when FAA will deploy TDDS to the 38 planned sites
                             for Segment 1, because the Agency has yet to establish a contract agreement and
                             fully define all requirements. Consequently, until TDDS is developed and
                             deployed, considerable uncertainty exists regarding when SWIM terminal
                             capabilities will be implemented.



Traffic Flow Management      Modernization work required to achieve SWIM TFM capabilities: The initial
(TFM)                        capability that SWIM/TFM will provide is aircraft reroute information formatted in
                             accordance with SWIM standards. This information will be sent to ERAM from
                             TFM and is planned for completion by FY 2011. The TFM program will also
                             develop new standards to support a service which describes current and planned
                             traffic flow constraints in the NAS, but is not planned for completion until FY
                             2013. The TFM system will also provide a new service to airspace users through
                             the distribution of data collected from terminal facilities. However, requirements
                             for this capability have yet to be defined because of its dependence on a new
                             terminal program to modernize equipment controllers rely on to manage traffic in
                             the vicinity of airports, which has yet to be developed. Moreover, this service is not
                             expected to be implemented until FY 2014.



Aeronautical Information     Requirements to complete SWIM SUA capabilities: The SWIM SUA capability
Management/Special Use       will provide a standard data entry user interface to accommodate the creation of
Airspace (SUA)               digital designs of SUA assigned areas. The SWIM SUA capability will also ensure
                             schedules and status are digitally managed in the NAS, and changes in SUA status
                             are captured and distributed as they are made. While FAA is planning to initially
                             start operating the SWIM SUA capability in Fiscal Year 2010, another 3 years will
                             pass before this key flight data is accessible by other users in the NAS. We found
                             that FAA is not planning to upgrade ERAM with SWIM capability to exchange
                             SUA data with other air traffic management systems until FY 2014. We also note
                             that ERAM and SWIM program officials have yet to establish PLAs or any firm
                             requirements to meet this planned milestone date.




    Exhibit D. N AS Programs Challenges I mplementing SWIM Capabilities
                                                                                                            19


Weather Message               Requirements to complete SWIM WMSCR capabilities: The SWIM WMSCR
Switching Center              portion adds a new capability to automatically distribute pilot reports (PIREPs) of
Replacement System            crucial weather observations by pilots to En Route controllers. Although WMSCR
(WMSCR)                       program officials reported that 3 WMSCR facilities will be upgraded with SWIM
                              by FY2012, another 3 years will pass before this crucial weather data will be
                              distributed to the wider NAS community. WMSCR can only redistribute the data
                              after it receives the information from ERAM. However, FAA is not planning to
                              upgrade ERAM with the interface to record PIREPs and send the automatic PIREPs
                              to the WMSCR system until 2015. Moreover, ERAM and SWIM program officials
                              have yet to establish PLAs or any firm requirements to meet this planned milestone
                              date.



Integrated Terminal
                              Funding concerns to implement SWIM ITWS capabilities: ITWS promotes
Weather System (ITWS)
                              common situational awareness among all users, which is crucial to the collaborative
                              decision making process necessary to reduce weather-related delays. FAA
                              performed demonstrations with SWIM/ITWS capabilities in October 2008 and
                              plans to publish 31 products by FY 2011. ITWS program officials are concerned
                              because they will have to fund and support both SWIM/ITWS and the existing
                              ITWS services until all users upgrade with SWIM.



Corridor Integrated Weather   Users upgrading to implement SWIM CIWS capabilities: CIWS will work with
System (CIWS)                 SWIM to allow traffic managers to collaborate with dispatchers on routes to avoid
                              during severe weather conditions; it will also help to avoid en route delays, which
                              saves airline fuel costs. While the CIWS prototype was deployed in 2010, FAA
                              officials could not tell us when or if Airline Operating Centers, the primary users of
                              CIWS weather data, would upgrade their systems to utilize the SWIM data.



    Source: OIG analysis of SWIM Implementing Program documentation.




    Exhibit D. N AS Programs Challenges I mplementing SWIM Capabilities
                                                                           20



EXHIBIT E. ACTIVITIES VISITED OR CONTACTED
Federal Aviation Administration (FAA):

Headquarters
 • System Wide Information Management Program Office   Washington, DC
 • Evolution and Coordination                          Washington, DC
 • Requirements and Governance                         Washington, DC

System Wide Information Management Implementing Programs
 • Aeronautical Information Management                 Washington, DC
 • Corridor Integrated Weather System                  Washington, DC
 • En Route Automation Modernization                   Washington, DC
 • Integrated Terminal Weather System                  Washington, DC
 • Terminal Data Distribution System                   Washington, DC
 • Traffic Flow Management System                      Washington, DC
 • Weather Message Switching Center Replacement        Washington, DC


William J. Hughes Technical Center                     Atlantic City, NJ


Volpe National Transportation
Systems Center                                         Cambridge, MA




Exhibit E. Acti vities Visited or Contacted
                                                            21




EXHIBIT F. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                  Title

  Kevin Dorsey                          Program Director

  Arnett Sanders                        Project Manager

  Sean Woods                            Senior Auditor

  Constance Hardy                       Senior Analyst

  Katrina Knight                        Senior Auditor

  Kiesha Henson                         Auditor

  Arthur Shantz                         Technical Advisor

  Andrea Nossaman                       Writer/Editor




Exhibit F. Major Contributors to This Report
                                                                                        22



APPENDIX. AGENCY COMMENTS


                     Federal Aviation
                     Administration

Memorandum
Date:
To:             Jeffery B. Guzzetti, Assistant Inspector General for Aviation and Special
                Program Audits
From:            Clay Foushee, Director, Audit and Evaluations, AAE-1
Subject:         OIG Draft Report: FAA’s Approach to SWIM Has Led to Cost and
                 Schedule Uncertainty and No Clear Path for Achieving NextGen Goals
                 Federal Aviation Administration


The System Wide Information Management (SWIM) program is an advanced technology
program designed to facilitate greater sharing of Air Traffic Management (ATM) system
information such as airport operational status, flight data, weather information, status of
special use airspace, and National Air Space (NAS) restrictions. SWIM supports current
and future NAS programs by providing a flexible and secure information management
architecture for sharing NAS information. The primary objective of SWIM is to improve
the Federal Aviation Administration’s (FAA) ability to manage the efficient flow of
information. The SWIM program is an integral part of the Next Generation Air
Transportation System (NextGen) that requires FAA programs to provide more
streamlined communications and efficient operations.

Some of SWIM’s accomplishments over the past two years include:

      •   Corridor Integrated Weather System (CIWS) capability operational September 27,
          2010; 15 CIWS products available.
      •   Integrated Terminal Weather System (ITWS) capability operational January 25;
          30 ITWS products available.
      •   Aeronautical Information Management/Special Use Airspace capability:
          completed initial operating capability (IOC) December 16, 2010.
      •   Joint Resource Council (JRC) Segment 2 Authorization to Proceed (ATP)
          November 17, 2010.
      •   SWIMposiums held Sept 2009, September 2010.
      •   NAS Service Registry/Repository (NSRR) operational July 2010.




Appendix. Agency Comments
                                                                                     23


The following is provided in response to the OIG’s recommendation:

Recommendation 1: Finalize SWIM requirements for Segment 1 and establish firm cost
and schedule commitments.

FAA Response: Concur. FAA agrees that finalized requirements are necessary for firm
cost and schedule commitments by SWIM implementing programs (SIPs). Program
Level Agreements (PLAs) between SWIM and SIPs are updated annually. Each year,
PLAs are modified to include milestones that must be achieved by the SIP in order to
meet SWIM cost and schedule commitments.

Recommendation 2: Provide the SWIM Program Office with the proper authority to
ensure SWIM capabilities will be implemented within the established schedule.

FAA Response: Concur. With the SWIM Segment 2 JRC decision on November 17,
2010, SWIM was given more authority. SWIM is now part of the JRC process and
without approval from the SWIM program office, a program can be stopped from
proceeding to its next JRC milestone. SWIM also has been integrated into the Enterprise
Architecture Board and Technical Review Board.

As of April 14, 2011, the Deputy Administrator will assume direct oversight
responsibility for the NextGen activities. Differences between SWIM and the SIPs
regarding SWIM implementation will be adjudicated at this level.

Recommendation 3: Strengthen the PLA process so the SWIM Program Office can
have sufficient authority to enforce SWIM’s Segment 1 implementation.

FAA Response: Concur. FAA agrees that the Program Level Agreement (PLA) process
needs to embody sufficient authority to enforce Segment 1 implementation. Since the
initial versions were written in 2008, PLAs have continued to evolve in order to
strengthen SIP accountability for Segment 1 implementation. Differences between SWIM
and the SIPs regarding SWIM implementation will be adjudicated as described in the
response to Recommendation 2.

Recommendation 4: Define Requirements through SWIM’s end state by:

a. developing an overall architectural design for the SWIM program identifying all the
   NAS systems that will be required to implement SWIM technology

FAA Response: Concur. The SWIM Program Office works closely with NextGen and
Operations Planning (AJP) to ensure that the evolution of SWIM, represented by three
Segment Implementations in the NAS Enterprise Architecture roadmaps and System
Views, is consistent with achievable SWIM program capabilities. Since January 13,
2009, SWIM has been conducting service-oriented architecture (SOA) suitability
assessments of programs before their JRC investment decisions. This process identifies
NAS systems that need to include SWIM technology.



Appendix. Agency Comments
                                                                                          24


Requirements and architecture for SWIM Segment 2 will be finalized in preparation for a
Final Investment Decision (FID) on September 30, 2012. Requirements and architecture
for SWIM Segment 3 will be finalized in preparation for a Final Investment Decision
(FID) on September 30, 2014.

b. defining their respective costs and schedules for implementing planned capabilities.

FAA Response: Concur. Costs and schedules for SWIM Segment 2 will be finalized in
preparation for a Final Investment Decision (FID) on September 30, 2012. Costs and
schedules for SWIM Segment 3 will be finalized in preparation for a Final Investment
Decision (FID) on September 30, 2014.

Recommendation 5: Align SWIM implementation strategy with the Agency’s NextGen
goals, develop a realistic plan that coordinates the two, and define when planned
NextGen benefits will be realized.

FAA Response: Concur. SWIM implementation strategy will be aligned with NextGen
goals and defined in more detail in preparation for a Final Investment Decision (FID) on
September 30, 2012.

Recommendation 6: Follow up with NAS program offices and users implementing
SWIM technology to determine whether they are meeting all the requirements necessary
to protect NAS systems from exposure to security risks.

FAA Response: Concur. SWIM is prototyping an identity and key management (IKM)
capability using VeriSign-provided security certificates to ensure that only authorized
users have access to NAS systems. These security requirements will be finalized in
preparation for a Segment 2 Final Investment Decision (FID) on September 30, 2012.




Appendix. Agency Comments
